Office of the Inspector General
Skip to content
Social Security Online
Office of the Inspector General
www.socialsecurity.gov
Home  |  Questions?  |  Contact
Us
Search
About
Hotline
Offices
Resources
Español
OIG Home
Audit Report - A-02-96-02204
Office of Audit  Office of the Inspector General
Evaluation Report: Test of Satisfaction Scales - A-02-96-02204
- 10/23/96
This report presents the results of our test of different
overall satisfaction scales used in the questionnaire for the annual
Customer Satisfaction Survey. This inspection was conducted at the
request of the Executive Staff in support of the Agency`s implementation
of the Government Performance and Results Act (GPRA).
We evaluated the effect of changing the highest rating,
or "top box," on the overall satisfaction scale from the
traditional rating of "very good" to "excellent." In
their discussions on GPRA, the Executive Staff felt that excellent
was a more appropriate customer service goal for a world-class organization.
However, because of the importance of longitudinal analysis to ongoing
monitoring of customer satisfaction, the Social Security Administration
(SSA) needed to be assured that a change to "excellent" as
the top box would not preclude longitudinal analysis.
We found no statistically significant difference in
top box satisfaction ratings among each of the three samples and
the top box rating for the last annual Customer Satisfaction Survey.
The SSA`s customers rated "excellent" and "very
good" similarly as the top box on an overall satisfaction scale.
Because there are no statistically significant differences, we determined
that the scale can be changed without jeopardizing the integrity
of longitudinal analysis.
BACKGROUND
In 1984, the General Accounting Office (GAO) began
annual surveys of how well SSA serves the public. These surveys were
conducted in response to congressional concerns that the quality
of SSA service would decline as SSA reduced staff and modernized
services. In its January 1986 report, GAO recommended that SSA continue
conducting customer satisfaction surveys. Each Commissioner since
1986 has requested that the Office of the Inspector General conduct
these surveys as an independent evaluation of how well the Agency
serves the public.
Data from these surveys are used as performance measures.
More specifically, data on overall satisfaction, readability of mail,
and staff courtesy are used as performance measures reported under
GPRA. Other data from the surveys are used to assess Agency performance
in meeting the standards in the customer service pledge. The SSA
is required to report its progress in meeting these standards under
Executive Order 12682, "Setting Customer Service Standards."
SCOPE OF THE EVALUATION
To conduct this evaluation, we replicated the methodological
procedures used in the annual customer satisfaction surveys. More
specifically, we selected 3 samples of 300 SSA customers using the
same selection procedures and criteria as in the annual customer
satisfaction survey. In these samples, the customers had a transaction
on their automated file on either May 31 or June 3, 1996.
One of three post-card sized questionnaires (Appendix
A) were mailed to each customer on June 22, 1996. The questionnaires
were identical except for the scale to the last question on overall
satisfaction. Each of the three samples got a different scale. One,
referred to as V5, was the traditional five point scale with "very
good" as the top box. The other two were four and five point
scales beginning with "excellent" as the top box. They
are referred to as E4 and E5. The full scales are:
Ø V5--very good, good, fair, poor, very poor;
Ø E4--excellent, good, average, poor; and
Ø E5--excellent, good, average, poor, very poor.
We sent postcard reminders on July 13, 1996 and second
questionnaires on July 31, 1996 to customers who had not
responded.
The premise for this inspection was there could be
no statistically significant differences among top box scores if
SSA is to consider changing the scale. We decided to test the concept
of change by conducting control tests of three samples of SSA customers.
Assuming at least a 70 percent response rate for each of the three
samples, there would be no significant difference among the top box
ratings if the ratings were within +/- 6 percent of each
other and last years rating of 46 percent (at a 95 percent confidence
level). Top box scores for recent customer satisfaction surveys ranged
from 43 percent in 1993 to 46 percent this year.
Back to top
RESULTS OF
THE EVALUATION
As can be seen in Table 1 (below), top box ratings
for each of the three samples cluster in the mid-40 percent range
as did the top box rating for the last Customer Satisfaction Survey
(S12). Additionally, since all top box ratings fall within a 2 percentage
point range, and well within the smallest confidence interval, it
is easy to determine that there are no statistically significant
differences among the top box ratings.
Table 1
Top Box Ratings
Sample
Size
Respondents
Top Box
Responses
Top Box
%
Confidence
Interval
V5
300
230
106
46.1
+/- 6.6%
E4
300
227
102
44.9
+/- 6.5%
E5
300
217
96
44.2
+/- 6.7%
S12
1,500
1,103
508
46.1
+/- 2.9%
Respondents also had similar ratings on the traditional
satisfaction scale. The traditional satisfaction rating, as developed
by GAO in the original SSA Customer Satisfaction Survey, consisted
of adding the ratings for the top two boxes i.e., "very good" and "good." The
overall satisfaction rating for the last Customer Satisfaction Survey
was 79 percent. For the three samples, the top two box ratings
were 82 percent (V5), 82 percent (E4), and 84 percent (E5).
Although consistently higher than the last survey`s rating, they
are not statistically significantly different.
Respondents were equally consistent in their ratings
of the quality of service on their last contacts with SSA. Customers
were asked if they called a local office and/or the 800 number,
and if they visited a field office (FO) all within the last year.
Satisfaction ratings with the service they received during their
last call or visit were similar. (See Table 2.)
Table 2
Satisfaction Ratings for Last Call or Visit
Sample
Last Visit
Last 800# Call
Last FO Call
V5
85%
82%
83%
E4
85
76
82
E5
85
74
80
CONCLUSION AND RECOMMENDATION
We found that SSA`s customers rate "excellent" and "very
good" similarly as the top box on an overall satisfaction scale.
More specifically, we found no statistically significant differences
among three test surveys and the last annual Customer Satisfaction
Survey. Accordingly, we are confident that ongoing longitudinal analysis
among annual customer satisfaction surveys will remain valid if the
scale is changed. We recommend that SSA move ahead with its plan
to shift to a top box satisfaction scale using "excellent" as
the top box on the scale.
David C. Williams
Back to top
Appendix
A
SURVEY QUESTIONNAIRE WITH WITH THREE SCALES
HOW WELL IS SOCIAL SECURITY SERVING YOU?
The Office of the Inspector General has been asked
to look at how well the Social Security Administration is serving
the public. To do this we need your help. Please complete this questionnaire
and mail it back to us. We would like you to answer the questions
even if you are not receiving benefits.
This survey is completely voluntary. Your answers will
not affect your eligibility for Social Security or any other government
benefits and will be kept confidential.
If you have questions about this survey, you can call
us toll-free at 1-800-772-8246. If you have any questions about your
Social Security claim or benefits, call 1-800-772-1213.
Thank you for helping us.
PAPERWORK REDUCTION ACT STATEMENT
The Paperwork Reduction Act of 1995 requires
us to notify you that this information collection is in  accordance
with the clearance requirements of section 3507 of the Paperwork
Reduction Act of  1995. We may not conduct or sponsor, and you are
not required to respond to, a collection of  information unless it displays a valid OMB control number.
TIME IT TAKES TO COMPLETE THIS FORM: We estimate that
it will take you about 2 to 3  minutes to complete this survey. This
includes the time it will take to read the instructions, gather  any necessary facts and fill out the form. If you have comments or suggestions
on this estimate,
write to the Social Security Administration, ATTN: Reports Clearance Officer,
1-A-21 Operations  Building, Baltimore, MD 21235. Send only comments relating
to our "time
it takes" estimate to the  office listed above. All requests for Social
Security cards and other claims-related information
should be sent to your local Social Security office, whose address is listed
undeer Social Security  Administration in the U.S. Government section our your telephone directory.
PLEASE ANSWER THE QUESTIONS, DETACH THIS SIDE, & MAIL
THE OTHER HALF
Office of the Inspector General OMB No. 0960-0526
1. Did you visit a Social Security office in the
last 12 months?
¨ No--GO TO QUESTION 2
¨ Yes--IF YES; Were you satisfied with SSA`s
service during your last visit?
¨ No ¨ Yes
2. Did you call the Social Security 800 number in the last 12 months?
¨ No--GO TO QUESTION 3
¨ Yes -- IF YES; Were you satisfied with SSA`s
service during your last call?
¨ No ¨ Yes
3. Did you call a local Social Security office in the last 12 months?
¨ No-- GO TO QUESTION 4
¨ Yes-- IF YES; Were you satisfied with SSA`s
service during your last call?
¨ No ¨ Yes
4. Overall, how would you rate the service that Social Security has given
you? (_only one)
V5-¨ Very Good ¨ Good ¨ Fair ¨ Poor ¨ Very
Poor
E4-¨ Excellent ¨ Good ¨ Average ¨ Poor
E5-¨ Excellent ¨ Good ¨ Average ¨ Poor ¨ Very
Poor
Privacy Policy | Website
Policies & Other Important Information | Site
Map
Need Larger Text?
Last reviewed or modified